October 7, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
RE:

Penny Nichols Corn, et al. v. Mississippi Department of Public
Safety, et al., No. 20-384

Dear Mr. Harris:
Pursuant to Rule 37.2, Respondents in the above-captioned case hereby gives
blanket consent to the submission of a timely filed amicus curiae brief on behalf of
either or neither party in this matter.
Sincerely,
s/Krissy C. Nobile
Krissy C. Nobile
Counsel of Record

cc:

Shirley Payne
Counsel for Petitioners

WALTER SILLERS BUILDING • POST OFFICE BOX 220 •JACKSON, MISSISSIPPI 39205-0220
TELEPHONE (601) 359-3680

